TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                     RECOVERY ACT


                     Procurements Were Not Processed in
                    Compliance With the American Recovery
                        and Reinvestment Act of 2009



                                      September 30, 2011

                              Reference Number: 2011-11-132




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                        HIGHLIGHTS


PROCUREMENTS WERE NOT                               and Budget and were awarded without meeting
PROCESSED IN COMPLIANCE WITH                        Recovery Act procurement requirements. This
THE AMERICAN RECOVERY AND                           oversight occurred because IRS program offices
REINVESTMENT ACT OF 2009                            did not notify the Office of Procurement of these
                                                    planned Recovery Act procurements in
                                                    accordance with IRS guidance.
Highlights                                          In addition, the IRS Office of Procurement Policy
                                                    did not take immediate corrective action once
Final Report issued on                              these unreported procurements were
September 30, 2011                                  discovered. TIGTA reviewed all 19 awarded
                                                    Recovery Act procurements that were properly
Highlights of Reference Number: 2011-11-132         reported and determined that only one
to the Internal Revenue Service Chief,              procurement action met all Recovery Act
Agency-Wide Shared Services.                        planning and award requirements.

IMPACT ON TAXPAYERS                                 Due to the limited time remaining for awarding
                                                    Recovery Act procurements, TIGTA is not
The Internal Revenue Service (IRS) received an      making a recommendation to address the
appropriation of $203 million in American           control weaknesses identified in this audit.
Recovery and Reinvestment Act of 2009               However, TIGTA believes the IRS should
(Recovery Act) funds. However, the IRS did not      document lessons learned from the
always comply with the Recovery Act and its         implementation of the Recovery Act
implementing guidance in planning and               requirements.
awarding Recovery Act funded procurements.
When Recovery Act procurements do not               WHAT TIGTA RECOMMENDED
comply with the various transparency and
                                                    TIGTA recommended that the Director of
accountability requirements, the reliability of
                                                    Procurement evaluate the control weaknesses
Recovery Act spending information is impaired,
                                                    and noncompliance issues identified during the
and taxpayers will not have the ability to see
                                                    audit and document any lessons learned which
how Recovery Act funds were used by the IRS.
                                                    could be used as a reference for future
WHY TIGTA DID THE AUDIT                             legislation that may include special requirements
                                                    for procurements, including tracking and
This audit was initiated because the Recovery       reporting requirements and management control
Act created specific guidelines and requirements    reviews.
for all procurements funded by the Recovery Act
to ensure that Federal agencies effectively         IRS officials agreed with our recommendations
manage these procurement activities. The            and stated that the Office of Procurement plans
overall objective of this review was to determine   to work with its operating divisions to document
whether the IRS has complied with the Recovery      any lessons learned, including an assessment
Act and its implementing guidance in planning       on Recovery Act reporting and a discussion on
and awarding Recovery Act funded                    ways to improve the process. Going forward,
procurements.                                       the Office of Procurement also plans to ensure
                                                    that all procurement managers are briefed on
WHAT TIGTA FOUND                                    new legislation, including any special
                                                    requirements for planning, awarding, tracking,
The IRS did not always comply with the
                                                    and reporting procurements.
Recovery Act and its implementing guidance in
planning and awarding Recovery Act funded
procurements. TIGTA identified three
procurements totaling approximately $58,000
that were not timely reported to the Department
of the Treasury or the Office of Management
                                                 DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              September 30, 2011


MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES

FROM:                          Michael R. Phillips
                               Deputy Inspector General for Audit

SUBJECT:                       Final Audit Report – Procurements Were Not Processed in Compliance
                               With the American Recovery and Reinvestment Act of 2009
                               (Audit # 201010114)

This report presents the results of our review to determine whether the Internal Revenue Service
(IRS) has complied with the American Recovery and Reinvestment Act of 2009 (Recovery Act)1
and its implementing guidance in planning and awarding Recovery Act funded procurements.
This report is consistent with Office of Management and Budget guidance2 to identify high-risk
programs and create quicker turnaround reporting. This review was included in our
Fiscal Year 2010 Annual Audit Plan and addresses the major management challenge of
Erroneous and Improper Credits and Payments.
The Recovery Act provides separate funding to the Treasury Inspector General for Tax
Administration through September 30, 2013, to be used in oversight activities of IRS programs.
This audit was conducted using Recovery Act funds.
Management’s complete response to the draft report is included as Appendix IX.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations), at (202) 622-8500.




1
    Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
    Updated Implementing Guidance for the American Recovery and Reinvestment Act of 2009 (dated April 3, 2009).
                         Procurements Were Not Processed in Compliance
                          With the American Recovery and Reinvestment
                                          Act of 2009




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Internal Revenue Service Controls Did Not Ensure Effective
          Tracking and Reporting of All Recovery Act Procurements ........................ Page 4
                    Recommendation 1: .................................................................. Page 8

          The Internal Revenue Service Did Not Comply With All Recovery
          Act Requirements When Processing Recovery Act Procurements............... Page 8
                    Recommendation 2: .................................................................. Page 10

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Outcome Measure ................................................................ Page 15
          Appendix V – Recovery Act Contract Award Requirements ....................... Page 16
          Appendix VI – Summary of Internal Revenue Service Compliance
          With Recovery Act Procurement Requirements ........................................... Page 19
          Appendix VII – The Recovery Act Procurement Process at the
          Internal Revenue Service .............................................................................. Page 21
          Appendix VIII – Glossary of Terms ............................................................. Page 23
          Appendix IX – Management’s Response to the Draft Report ...................... Page 26
             Procurements Were Not Processed in Compliance
              With the American Recovery and Reinvestment
                              Act of 2009




                          Abbreviations

CFO                 Chief Financial Officer
FedBizOpps          Federal Business Opportunities
FNR                 Funding Notification Report
IRS                 Internal Revenue Service
OMB                 Office of Management and Budget
                      Procurements Were Not Processed in Compliance
                       With the American Recovery and Reinvestment
                                       Act of 2009




                                            Background

Enacted on February 17, 2009, the American Recovery and Reinvestment Act of 2009
(Recovery Act)1 contained both spending and tax provisions of $787 billion over 10 years
designed to stimulate the national economy by creating and retaining jobs. The Internal Revenue
Service (IRS) is charged with administrating tax law changes2 contained in the Recovery Act. In
April 2009, the IRS received its appropriation3 of $203 million in Recovery Act funds,4 which
was to be used to implement the necessary tax changes as a result of the Recovery Act
provisions. As of February 18, 2011, the IRS has awarded 24 procurement5 actions with
Recovery Act funds that totaled approximately $85 million, of which approximately $72 million
has been dispersed to contractors.6
The Recovery Act required unprecedented levels of transparency, oversight, and accountability.
The web site www.Recovery.gov is the official source of information related to the Recovery
Act and was designed to create a site that provides transparency of information related to
spending on Recovery Act programs. Agencies must follow the same laws, principles,
procedures, and practices in awarding contracts with Recovery Act funds as they do with other
funds; however, the Recovery Act also created specific guidelines and requirements for all
procurements funded by the Recovery Act. The Office of Management and Budget (OMB)
issued several supplemental guidance documents that outline steps for implementing the
Recovery Act and clarifying the requirements for planning and awarding procurements. For
example, presolicitation and contract award notices must be posted on the Federal Business


1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  The Recovery Act included more than 50 tax law provisions that the IRS is charged with administering. These tax
changes included refundable credits, such as the Making Work Pay and First-Time Homebuyer Credits.
3
  See Appendix VIII for a glossary of terms.
4
  This appropriation amount included $80 million for the Health Coverage Tax Credit program and $123 million for
supporting tax provision changes cited in the Recovery Act (totaling $203 million). Recovery Act funds
appropriated under the Health Coverage Tax Credit must have been obligated by September 30, 2010, and funds
appropriated under the Tax Provisions must be obligated by September 30, 2011. We were informed by the Deputy
Chief Financial Officer, Corporate Budget, Budget Execution Office, Execution Analysis, that the Department of the
Treasury retained $1 million of the $203 million for its administrative oversight. This report examined Recovery
Act funded procurements, but did not include a review of IRS Recovery Act funded administrative costs.
5
  We broadly use the term procurements throughout this report to include contracts, task orders, or delivery orders
issued against existing contracts.
6
  This includes 19 awarded procurements identified from the IRS Procurement Plan dated July 16, 2010, and
the 3 unreported Recovery Act procurement actions we identified during our fieldwork. This also includes
two procurement actions added to the Procurement Plan after July 16, 2010, and subsequently awarded. These last
two procurements were outside the scope of our review and were not included in our review of the IRS’s compliance
with Recovery Act requirements.
                                                                                                           Page 1
                    Procurements Were Not Processed in Compliance
                     With the American Recovery and Reinvestment
                                     Act of 2009



Opportunities (FedBizOpps) system so the public will be aware of Recovery Act procurement
opportunities. On February 19, 2009, the Department of the Treasury issued Acquisition
Bulletin No. 09-02 to implement OMB Memorandum M-09-10 and subsequently issued
guidance in various forms to implement additional Treasury-wide guidance, interpretations, and
processes. Acquisition Bulletin No. 09-02, Revision 1, was issued on June 30, 2010, to
consolidate all informal Recovery Act guidance as well as new policies in support of OMB
requirements. See Appendix V for a detailed description of the Recovery Act contract award
requirements.
The IRS has issued guidance7 that establishes procedures for procurements using Recovery Act
funding. The IRS guidance incorporates current OMB and Department of the Treasury
guidance. This guidance was intended for use by all Office of Procurement personnel and the
Contracting Officer’s Technical Representatives within the program offices.
The IRS Office of Procurement Policy, Policy and Procedures Branch (hereafter referred to as
Procurement Policy), is responsible for tracking and reporting all procurements that have been
identified for Recovery Act funding. It is the responsibility of the program offices to determine
whether the procurement need is appropriate for Recovery Act funding and to notify the Office
of Procurement of any new planned procurements as they occur. See Appendix VII for details of
the Recovery Act Procurement Process at the IRS.
Within the IRS, three business units have used Recovery Act funds to award procurements for
reprogramming IRS computer systems, updating related tax forms and publications, and
providing customer services to assist taxpayers. These business units include the Wage and
Investment Division, Modernization and Information Technology Services organization, and Tax
Exempt and Government Entities Division.
Our prior audit8 reviewed the IRS’s initial efforts to prepare for and award Recovery Act
procurements. We determined that while the IRS took some proactive steps before the Recovery
Act was enacted and continued to refine its efforts to plan, award, and report Recovery Act
procurements during Calendar Year 2009, it did not have the necessary controls to ensure future
procurements would comply with Recovery Act requirements. For example, the IRS had not
developed written procedures regarding Recovery Act procurement requirements, provided
formal training for those procuring goods and services, nor had it dedicated sufficient staffing
resources to track and report Recovery Act procurements. Since the previous report, the IRS
issued formal written guidance regarding Recovery Act processes and has assigned additional
staff within Procurement Policy to perform Recovery Act responsibilities. In addition, some
additional training on the Recovery Act specific procurement requirements has been provided by
Procurement Policy to one business unit.

7
 Policy and Procedure Memorandum No. 70.26, dated November 17, 2010.
8
 Additional Actions Are Needed to Ensure Readiness to Comply With the American Recovery and Reinvestment Act
of 2009 Procurement Requirements (Reference Number 2010-11-071, dated June 28, 2010).
                                                                                                     Page 2
                  Procurements Were Not Processed in Compliance
                   With the American Recovery and Reinvestment
                                   Act of 2009



This review was performed at the IRS Office of Procurement in Oxon Hill, Maryland;
Modernization and Information Technology Services organization in New Carrollton, Maryland;
Wage and Investment Division program offices in Atlanta, Georgia; and Tax Exempt and
Government Entities Division program offices and the IRS National Headquarters in
Washington, D.C., during the period May 2010 through July 2011. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                           Page 3
                     Procurements Were Not Processed in Compliance
                      With the American Recovery and Reinvestment
                                      Act of 2009




                                    Results of Review

The IRS did not always comply with the Recovery Act and its implementing guidance in
planning and awarding Recovery Act funded procurements. We identified 3 procurements
totaling approximately $58,000 that were not timely reported to the Department of the Treasury
or the OMB and were awarded without meeting Recovery Act procurement requirements. This
oversight occurred because IRS program offices did not notify the Office of Procurement of
these planned Recovery Act procurements in accordance with IRS policy. In addition, the IRS
Procurement Policy did not take immediate corrective action once these unreported
procurements were discovered. In addition, we reviewed all 19 awarded Recovery Act
procurements that were properly reported and determined that only one procurement action met
all Recovery Act planning and award requirements.
Since our last Recovery Act procurement review, the IRS has made some progress in managing
the progression of Recovery Act procurements from planning to award; however, when
procurement actions do not comply with Recovery Act requirements, there is a risk that the
transparency and accountability objectives for Government spending may not be achieved, and
taxpayers will not have the ability to see how Recovery Act funds were used by the IRS.9
We determined that the Recovery Act procurement actions we reviewed contained two instances
where awards were made with non-Recovery funds. In our prior audit,10 we discussed one of
these procurements and, therefore, will not provide any further comments here. In the remaining
instance, the IRS used non-Recovery funds totaling approximately $222,000 for a procurement
that was used in March 2010 to provide services for additional call volume generated by the
Recovery Act tax law provisions. When the IRS program office used non-Recovery funds to
acquire Recovery Act justified procurements, the $222,000 for this procurement was not
available for other IRS mission-critical needs, such as improving taxpayer service or addressing
the tax gap.
Internal Revenue Service Controls Did Not Ensure Effective Tracking
and Reporting of All Recovery Act Procurements
The IRS uses various reporting mechanisms to track Recovery Act procurements and funding.
These include:


9
  The IRS information is included in Department of the Treasury totals but is not depicted separately on
Recovery.gov.
10
   Additional Actions Are Needed to Ensure Readiness to Comply With the American Recovery and Reinvestment Act
of 2009 Procurement Requirements (Reference Number 2010-11-071, dated June 28, 2010).
                                                                                                      Page 4
                      Procurements Were Not Processed in Compliance
                       With the American Recovery and Reinvestment
                                       Act of 2009



     •   Procurement Plan: the official inventory list of all IRS planned procurements that have
         been proposed for Recovery Act funding.
     •   Funding Notification Report (FNR): the reporting means for Recovery Act funds that
         agencies have publicly announced as being available to contractors and vendors through
         the solicitation of bids or proposals.11 Federal agencies are required to provide
         information to the OMB on the funding notifications made for all types of Recovery Act
         awards.
     •   Financial Activity Report: summarizes the weekly update spending activity of the
         IRS’s two Recovery Act appropriation codes, generated from the Integrated Financial
         System. This report includes the total obligations (financial commitments and
         expenditures) and gross outlays (expenditures only) for the IRS’s Recovery Act funding.
The IRS properly tracked and reported 19 awarded Recovery Act funded procurements.
However, our audit identified 3 additional awarded procurements, totaling approximately
$58,000, that were not reflected on either the IRS Procurement Plan or the FNR and, as a result,
were not reported on the OMB MAX web site. We identified these procurements by obtaining
an Integrated Financial System data extract of the two Recovery Act appropriation codes and
comparing the procurements to the procurements listed on the IRS Procurement Plan. These
unreported procurements were awarded on three separate dates ranging from June 16, 2009, to
April 16, 2010, but were not reflected on the IRS Procurement Plan or the FNR until
May 12, 2011, after we discussed the unreported procurements with the IRS.
These three procurements did not comply with requirements for processing Recovery Act
procurements. Specifically, the procurements:
     •   Were not “Act Friendly” and acquisition strategies were not prepared for approval by the
         Department of the Treasury prior to award.
     •   Involved comingled12 Recovery Act funds (totaling $58,000) with non-Recovery Act
         funds.13


11
   The contracting officer is responsible for notifying Procurement Policy when a Recovery Act action is awarded or
pending award. Procurement Policy submits the FNR updates to the Department of the Treasury, Office of
Performance Budgeting, as appropriate.
12
   Recovery Act funds become commingled when they are mixed with annual appropriated funds. OMB guidance
required separate accounts and coding to ensure the funds were maintained, recorded, and reported separately. The
contract award documents used to procure these related goods and services contained both Recovery Act and
non-Recovery Act funding. These contract award documents should have included only the goods and services
funded with Recovery Act funding and a separate contract award document should have been submitted for the
goods and services funded with non-Recovery Act funding.
13
   The IRS can track and report the use of Recovery Act funds for these projects within its own financial and
procurement systems.
                                                                                                           Page 5
                      Procurements Were Not Processed in Compliance
                       With the American Recovery and Reinvestment
                                       Act of 2009



     •   Did not have appropriate supporting documentation within the contract file such as the
         Recovery Act Procurement Strategy Summary form, the presolicitation notice, or a
         justification statement that explained how the procurement related to Recovery Act goals.
     •   Were not posted to appropriate web sites such as FedBizOpps or Recovery.gov14 to report
         data related to Recovery Act spending.
In addition, we were advised by the IRS that Procurement Policy became aware of these
procurements (after the fact), but did not take the necessary steps to comply with the Recovery
Act reporting requirements because the procurements had already been awarded.15
The IRS has three management controls for ensuring Recovery Act procurement actions are
tracked and reported in compliance with the Recovery Act reporting requirements. The primary
management control was the use of the two designated appropriation codes that were used to
identify Recovery Act transactions (obligations and expenditures). Our audit determined that
this control was working and allowed the IRS to identify and track Recovery Act procurement
transactions.16
Another management control designed to collect reporting data for Recovery Act procurement
actions was the IRS Procurement Plan and the FNR. IRS program offices are responsible for
notifying the Office of Procurement of any new planned procurement actions or when changes
occur in an existing procurement. However, this control was not effective because not all the
program offices were aware of the requirement and failed to report these new procurements to
the Office of Procurement.
A third management control was the reconciliation17 of Recovery Act financial data conducted
within the Office of the Chief Financial Officer (CFO), Office of Corporate Budget. The Office
of the CFO draft Standard Operating Procedure states that CFO personnel will prepare the
Financial Activity Report, which is reconciled (compared) weekly with the FNR prepared by the
IRS Office of Procurement. The Office of the CFO records the differences between the reports
and determines whether the accounting18 balances. The Office of the CFO then contacts
Procurement Policy and informs them of any reconciling items for which an explanation is
required. The FNR identifies only procurement-related items currently in the system and those


14
   Contracting officers input procurement information into FedBizOpps which is automatically populated to
Recovery.gov.
15
   On May 18, 2011, Procurement Policy notified the Department of the Treasury, Office of the Procurement
Executive, and requested recommended actions that should be taken regarding each of these transactions.
16
   For more information on the IRS’s accounting process and timeliness of reporting Recovery Act procurement
expenditures, see Treasury Inspector General for Tax Administration Inspections and Evaluations report: The IRS’s
Accounting for American Recovery and Reinvestment Act Fund Expenditures During the Period October 1, 2009,
through March 31, 2010 (Reference Number 2011-IE-R007, dated September 6, 2011).
17
   The Chief Financial Officer Recovery Act report reconciliation process was first initiated on December 10, 2009.
18
   The mathematical calculations in the individual reports should be in agreement.
                                                                                                            Page 6
                      Procurements Were Not Processed in Compliance
                       With the American Recovery and Reinvestment
                                       Act of 2009



that are anticipated in the near future. For this reason, there may be items that are included in the
FNR that are not yet on the Financial Activity Report. However, a procurement included on the
Financial Activity Report but not yet included on the FNR was an indication that a procurement
action was missing from the IRS Procurement Plan and that the related Recovery Act data had
not been reported on the OMB MAX web site.
Our audit determined that this control was not effective. While the CFO’s reconciliation process
had determined that these transactions were absent from the FNR, our audit showed: 1) there
was a significant time delay (ranging from 10 to 208 calendar days) between the procurement
award dates and identification of these procurements on the reconciliations by the Office of the
CFO; and 2) once the discrepancies were identified, the procurements continued to appear as a
discrepancy on subsequent Office of the CFO reconciliations. For example, in one instance, the
procurement appeared as a discrepancy from March 26, 2010, through June 10, 2011,19 with no
documented actions by the Office of Procurement to resolve the discrepancy. Due to turnover in
CFO personnel, we could not determine why there was a delay in identifying the discrepancies or
verify when CFO personnel first notified the IRS Office of Procurement of the discrepancies.20
The IRS Office of Procurement advised us that the Department of the Treasury no longer
required the IRS to submit the FNR as of October 8, 2010. Therefore, the IRS’s guidance did
not contain a requirement for Procurement Policy to timely research and resolve differences
between the FNR and Financial Activity Reports identified in the Office of the CFO
reconciliation process.
We believe that the Office of the CFO’s reconciliation process was an integral control for
ensuring that all Recovery Act procurements were appropriately tracked and reported. However,
additional guidance for Procurement Policy was needed to ensure: 1) that inconsistencies
between the FNR and the Financial Activity Report identified through the Office of the CFO
reconciliation process were timely researched and resolved; and 2) if unidentified Recovery Act
procurements were discovered, the appropriate OMB, Department of the Treasury, and IRS
officials (e.g., IRS Senior Accountable Official) are notified when Recovery Act funded
procurements are not reflected on the IRS Procurement Plan and the FNR prior to award and the
OMB MAX web site has not been timely updated.
When Recovery Act procurements are not properly tracked and reported, the Recovery Act
objectives of promoting accountability and transparency are not met, the reliability of the
information on Recovery Act spending is impaired, and the public will not have an accurate
account of how the IRS spent Recovery Act funds.


19
   This represents the last reconciliation we received and documents that this action had not been resolved as of this
date.
20
   The Office of the CFO advised us that it identified the discrepancies and notified the Office of Procurement of the
discrepancies on November 10, 2010; however, supporting documentation of this correspondence could not be
located.
                                                                                                              Page 7
                   Procurements Were Not Processed in Compliance
                    With the American Recovery and Reinvestment
                                    Act of 2009



IRS Procurement Policy advised us that it had only one remaining Recovery Act procurement to
award before September 30, 2011, and was not aware of any other plans for new Recovery Act
procurements. Due to the limited time remaining for awarding Recovery Act procurements, we
are not making a recommendation to address the control weaknesses identified in this audit.
However, we believe the IRS should document the lessons learned from the implementation of
the Recovery Act requirements as a reference for future legislation that may include special
tracking and reporting requirements for procurements. These lessons learned would be helpful
for the IRS in developing new procedures and controls to ensure compliance with any new
reporting requirements. For example, the lessons learned should include reconciliation controls
to ensure that all applicable procurements are identified, tracked, and reported as required. The
controls should also address actions to be taken when discrepancies are identified.
Recommendation
Recommendation 1: The Director of Procurement should evaluate the issues and control
weaknesses identified during the audit and document any lessons learned which could be used as
a reference for future legislation that may include special tracking and reporting requirements for
procurements. These lessons learned would be helpful for the IRS in developing new procedures
and controls to ensure compliance with any new reporting requirements.
       Management’s Response: The IRS agreed with our recommendation. The Office of
       Procurement will work with its operating divisions to document any lessons learned,
       including an assessment on Recovery Act reporting and a discussion on ways to improve
       the process. Going forward, the Office of Procurement will ensure that all Procurement
       managers are briefed on new legislation along with any special reporting and tracking
       requirements.
The Internal Revenue Service Did Not Comply With All Recovery Act
Requirements When Processing Recovery Act Procurements
The IRS did not comply with all Recovery Act procurement award requirements specified in
OMB implementing guidance for planning and awarding Recovery Act funded procurements.
We reviewed all Recovery Act procurement actions listed on the IRS Procurement Plan dated
July 16, 2010. From this list, we determined that the IRS awarded 19 (49 percent) of the
39 planned procurements with a total obligated contract value of $74.8 million. Our review of
the remaining planned procurements determined that 9 (23 percent) of the 39 were planned for
future award, and 11 (28 percent) of the 39 were canceled (either not awarded or awarded with
non-Recovery Act funds). The three unreported procurements discussed earlier in this report
were not included on the IRS Procurement Plan we tested and, as a result, were not included in
this analysis.



                                                                                            Page 8
                     Procurements Were Not Processed in Compliance
                      With the American Recovery and Reinvestment
                                      Act of 2009



Our audit determined that 18 (95 percent) of the 19 awarded procurement actions had one or
more instances of noncompliance with the Recovery Act award requirements. The
noncompliance categories we identified involved requirements for:
     •   Posting the procurement award information on designated publicly accessible web sites.21
     •   Using the appropriate notice format on presolicitation and/or post award notices.
     •   Including all Recovery Act mandatory clauses in new or existing contracts if Recovery
         Act funds will be used to pay for performance of the existing contracts.
     •   Appointing qualified Contracting Officer’s Technical Representatives.
See Appendix VI for details of the noncompliance of the Recovery Act award requirements we
identified.
Our review determined that there have been several system enhancements that may increase the
IRS’s future compliance with some Recovery Act processing requirements that include:22
     •   The FedBizOpps was enhanced at the end of January 2010 by including an electronic
         template for contracting officers to input presolicitation and post award notices. This
         template prompts users to indicate when procurement actions were Recovery Act funded
         and automatically generates the word “Recovery” preceding the title and another prompt
         to include the special statement preceding the actual requirement description. This
         enhancement should increase compliance with the special format issues we identified.
     •   The Federal Procurement Data System was enhanced effective March 12, 2010, to
         provide a separate field for Treasury Account Symbol23 data. Prior to this enhancement,
         Treasury Account Symbol information would drop off or not post on the Federal
         Procurement Data System. This enhancement should increase IRS compliance with the
         proper insertion of the Treasury Account Symbol requirement when posting the
         procurement award information.
There were several reasons that contributed to the lack of compliance with the requirements for
Recovery Act funded procurements. Although Procurement Policy advised contracting officers
and program office personnel on the proper requirements for processing Recovery Act
procurements and how to review the procurement documents before and after award, both parties
did not always follow the prescribed Recovery Act requirements. Moreover, the IRS did not


21
   When applicable, Recovery Act contract award actions should be posted on the following web sites for access by
Government and Public users: FedBizOpps, Recovery.gov, and the Federal Procurement Data System.
22
   These enhancements were implemented after 16 of the 19 procurements had been awarded.
23
   All Recovery Act transactions are required to be identified by the applicable Treasury Account Symbol. The
Federal Procurement Data System Program Office implemented a new data element within the Federal Procurement
Data System application to capture Treasury Account Symbol data.
                                                                                                         Page 9
                  Procurements Were Not Processed in Compliance
                   With the American Recovery and Reinvestment
                                   Act of 2009



provide any formal training for managers of procurement personnel or include any specific
instructions in their recent supplemental guidelines for managers to follow when performing
reviews of Recovery Act contract files to ensure the contracting officers were properly
completing the required Recovery Act procurement documents.
IRS guidance broadly states that Office of Procurement directors are accountable for
procurement quality and shall establish review systems to ensure quality standards are
maintained for all procurement actions within their offices, including simplified acquisitions.
While IRS guidance addresses the managerial review of individual procurement actions in
general terms, it does not specifically address the review of Recovery Act procurement
requirements. Our audit determined that the managers of two of the four contracting offices
involved with Recovery Act procurements had conducted documented reviews of the Recovery
Act contract files. However, none of the noncompliance issues we identified were cited in the
managers’ contract file reviews.
When procurement actions do not comply with Recovery Act requirements, there is a risk that
the transparency and accountability objectives for Government spending may not be achieved,
and taxpayers’ will not have the ability to see how Recovery Act funds were used by the IRS.
Due to the limited time remaining for awarding Recovery Act procurements, we are not making
a recommendation to address this control weakness. However, we believe the IRS should
document lessons learned from the implementation of the Recovery Act requirements as a
reference for future legislation that may include special requirements for planning and awarding
procurements. These lessons learned would be helpful for the IRS in developing new procedures
and controls to ensure compliance with any new procurement requirements. For example, the
lessons learned should include training for managers of procurement and program office
personnel and requirements for management control reviews of any new requirements for
procurement actions.
Recommendation
Recommendation 2: The Director of Procurement should evaluate the noncompliance
identified during the audit for planning and awarding Recovery Act procurements and document
any lessons learned.
       Management’s Response: The IRS agreed with our recommendation. The Office of
       Procurement will work with its internal operating divisions to document any lessons
       learned, including an assessment on Recovery Act reporting and a discussion on ways to
       improve the process. Going forward, the Office of Procurement will ensure that all
       Procurement managers are briefed on new legislation along with any special
       requirements for planning and awarding procurements.



                                                                                         Page 10
                      Procurements Were Not Processed in Compliance
                       With the American Recovery and Reinvestment
                                       Act of 2009



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS has complied with the American
Recovery and Reinvestment Act of 2009 (Recovery Act)1 and its implementing guidance in
planning and awarding Recovery Act funded procurements.2 To accomplish our objective, we:
I.      Reviewed the guidance that has been issued for planning and awarding procurements
        using Recovery Act funds, and identified the requirements and guidelines with which the
        IRS is required to comply.
        A. Obtained and reviewed all implementing guidance issued by the OMB,3 the
           Department of the Treasury, and the IRS pertaining to procuring goods and services
           using Recovery Act funds.
        B. Developed a checklist of the requirements pertaining to procuring goods and services
           using Recovery Act funds for use in reviewing the contract files. See Appendix V for
           Recovery Act requirements applicable to the processing of procurements.
II.     Determined whether the IRS’s Recovery Act procurements were in compliance with the
        required process for planning and awarding Recovery Act funded procurements.
        A. Obtained the July 16, 2010, IRS Procurement Plan and identified and reviewed all
           39 Recovery Act procurements.4 Of the 39 planned procurement actions:5
             1. Nineteen (49 percent) procurement actions were awarded between April 17, 2009,
                and July 21, 2010, on Recovery Act program initiatives with a total obligated
                contract value of $74.8 million, of which $33.9 million had been dispersed to
                contractors as of July 16, 2010.

1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  We broadly use the term procurements throughout this report to include contracts, task orders, or delivery orders
issued against existing contracts.
3
  See Appendix VIII for a glossary of terms.
4
  Our initial universe count of planned procurement actions was 49. However, the universe was reduced by
10 procurements because 6 procurements had multiple Classified Line Item Numbers which we consolidated with
2 of the 39 procurements, and 4 procurements were awarded and managed by the General Services Administration.
5
  In our prior report Concerns About Contracting Officer’s Technical Representatives That Are Relevant to the
American Recovery and Reinvestment Act of 2009 Procurements (Reference Number 2010-11-087, dated
July 23, 2010), we reported that the IRS had initiated or was in the process of initiating 26 of the 40 planned
procurement actions. The difference between the previously reported actions and our current count is due to our
consolidation of multiple Classified Line Item Numbers, canceled procurements, and new procurements. This does
not include three awarded procurements that were not shown on the IRS Procurement Plan (see page 4).
                                                                                                          Page 11
                  Procurements Were Not Processed in Compliance
                   With the American Recovery and Reinvestment
                                   Act of 2009



           2. Nine (23 percent) were anticipated future awards. We did not conduct an
              in-depth review of these contract files because there was minimal documentation
              available. At the end of our review, 8 (89 percent) of the 9 anticipated future
              awards had been canceled, and 1 was awarded January 12, 2011, with Recovery
              Act funds. Because our fieldwork in this area was largely completed, we did not
              include this procurement in our review.
           3. Eleven (28 percent) were canceled actions. We reviewed existing contract file
              documentation for these canceled procurement actions and met with pertinent IRS
              personnel to determine the reason why these Recovery Act procurement actions
              were canceled, whether the procurements were subsequently awarded using
              non-Recovery Act funds, and determined whether obligated Recovery Act funds
              for these actions were promptly deobligated.
       B. Reviewed the contract files for procurement actions identified from Step II.A.1 using
          the checklist prepared in Step I.B to determine whether the procurement actions were
          in compliance with the required process for planning and awarding Recovery Act
          funded procurements.
       C. Determined whether the IRS detected any failures to comply (noncompliance) with
          the Recovery Act requirements for procurements, and whether or not it took steps
          both incrementally and/or systemically through stronger internal controls to resolve
          any noncompliance, if applicable.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: policies, procedures, and practices for
planning and awarding Recovery Act funded procurements issued by the OMB, the Department
of the Treasury, and IRS Office of Procurement. In addition, we determined that the policies and
procedures for tracking Recovery Act financial activity were also relevant internal controls. We
evaluated these controls by interviewing program office, procurement, and financial personnel,
and by reviewing contract files and financial reconciliation reports.




                                                                                        Page 12
                 Procurements Were Not Processed in Compliance
                  With the American Recovery and Reinvestment
                                  Act of 2009



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia P. Mrozowski, Director
Darryl J. Roth, Audit Manager
Gary D. Pressley, Lead Auditor
Lauren W. Bourg, Auditor
Heather M. Hill, Senior Audit Evaluator




                                                                                  Page 13
                Procurements Were Not Processed in Compliance
                 With the American Recovery and Reinvestment
                                 Act of 2009



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Acting Commissioner, Tax Exempt and Government Entities Division SE:T
Chief Technology Officer OS:CTO
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Chief Technology Officer OS:CTO
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W
       Acting Commissioner, Tax Exempt and Government Entities Division SE:T
       Director, Procurement OS:A:P




                                                                               Page 14
                      Procurements Were Not Processed in Compliance
                       With the American Recovery and Reinvestment
                                       Act of 2009



                                                                                               Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.
Type and Value of Outcome Measure:
    •   Reliability of Information – Actual; $58,000 in American Recovery and Reinvestment
        Act of 2009 (Recovery Act)1 funds (see page 4).
Methodology Used to Measure the Reported Benefit:
We identified three procurement2 award actions totaling approximately $58,000 that were not
reflected on the IRS Procurement Plan or the FNR.3 As a result, these procurements were not
timely reported on the OMB MAX web site. These procurements were obligated and awarded
on separate dates ranging from June 16, 2009, to April 16, 2010, but were not reflected on the
IRS Procurement Plan until May 12, 2011, after we discussed these unreported procurements
with the IRS. We identified these procurements based on a comparison between a data extract
from the Integrated Financial System of the two appropriation codes4 that the IRS uses to track
Recovery Act transactions and the IRS Procurement Plan. When Recovery Act procurements are
not properly tracked and reported, the Recovery Act objectives of promoting accountability and
transparency are not met, the reliability of the information on Recovery Act spending is
impaired, and the public will not have an accurate account of how the IRS spent Recovery Act
funds.




1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  We broadly use the term procurements throughout this report to include contracts, task orders, or delivery orders
issued against existing contracts.
3
  See Appendix VIII for a glossary of terms.
4
  There are two Recovery Act appropriation codes: 09110129D (Tax Provisions) and 09100934D (Health Coverage
Tax Credit).
                                                                                                          Page 15
                     Procurements Were Not Processed in Compliance
                      With the American Recovery and Reinvestment
                                      Act of 2009



                                                                                               Appendix V

         Recovery Act Contract Award Requirements

OMB 1 guidance for planning and awarding American Recovery and Reinvestment Act of 2009
(Recovery Act)2 contract awards states agencies must:3
1.      To the maximum extent practicable, award contracts using Recovery Act funds as
        fixed-price contracts (see Federal Acquisition Regulation4 Subpart 16.2) using
        competitive procedures.
2.      Provide maximum practicable opportunities for small businesses to compete for agency
        contracts and to participate as subcontractors in contracts awarded by agencies.
3.      Publish presolicitation and award notices of orders under task and delivery order
        contracts on the FedBizOpps system, in addition to the Federal Acquisition Regulation
        Part 5 requirements for presolicitation and award notices.
4.      Include special formatting for presolicitation and award notices in the FedBizOpps
        system and award reporting in the Federal Procurement Data System to distinguish
        Recovery Act actions.
         a.    All presolicitation notices and award announcements must include the word
               “Recovery” as the first word in the Title field in the FedBizOpps system, preceding
               the actual title.
         b.    Presolicitation notices for delivery and task orders must also include the following
               statement in the Description field, preceding the actual description:
               THIS NOTICE IS PROVIDED FOR INFORMATION PURPOSES ONLY. THIS
               OPPORTUNITY IS AVAILABLE ONLY TO CONTRACTORS UNDER
               (contracting officer insert program name).”



1
  See Appendix VIII for a glossary of terms.
2
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
3
  These guidelines include OMB Memorandum 09-10 OMB Initial Implementing Guidance for the
American Recovery and Reinvestment Act of 2009, dated February 18, 2009, and OMB Memorandum OMB
Updating Implementing Guidance for the American Recovery and Reinvestment Act of 2009, dated April 3, 2009.
The Federal Acquisition Regulation has also been updated through Federal Acquisition Circulars. For instance, on
March 31, 2009, interim requirements were issued to update contract provisions and clauses. These procedures
became final on July 16, 2010.
4
  48 C.F.R. ch. 1 (2009).
                                                                                                        Page 16
                     Procurements Were Not Processed in Compliance
                      With the American Recovery and Reinvestment
                                      Act of 2009



         c.    When entering data in the Federal Procurement Data System on any action
               (including modifications) funded by the Recovery Act, agencies must enter the
               Treasury Account Symbol in the Description of Requirement field.5
5.      Include terms and conditions in contract documents necessary for effective
        implementation of Recovery Act data collection and accountability requirements.
6.      Provide a summary of the contract or order (or modification to an existing contract or
        order), including a description of the required products and services, which will be made
        available publicly and linked to the Recovery.gov6 web site for each Government contract
        or order (or modification to an existing contract or order) exceeding $500,000.
7.      Post a summary of any contract or order (or modification to an existing contract or order),
        including a description of the required products and services, in a special section of the
        Recovery.gov web site, unless the contract or order is both fixed-price and competitively
        awarded.
8.      Place special emphasis on responsibility determinations and preaward surveys. The
        award of a contract based solely on lowest evaluated price can produce a false economy,
        increasing performance, cost, and schedule risk. Federal Acquisition Regulation
        Subpart 9.103 states that a prospective contractor must affirmatively demonstrate its
        responsibility, including, when necessary, the responsibility of its proposed
        subcontractors.
9.      Use authorized acquisition flexibilities as appropriate to avoid unnecessary delays in
        awarding contracts with Recovery Act funds.
10.     Provide for appropriate oversight of contracts to ensure outcomes that are consistent with
        and measurable against agency plans and goals under the Recovery Act. It is critical that
        agencies evaluate their workforce needs so that they are able to appoint qualified
        Contracting Officers, Contracting Officer’s Technical Representatives, and Program
        Managers with certification levels appropriate to the complexity of Recovery Act
        projects.
11.     Do not commingle Recovery Act funds with other funds in apportionment requests
        prepared for the OMB. Agencies must separately track apportionments, allotments,
        obligations, and expenditures related to Recovery Act funding. In some cases, agencies
        may need to use Recovery Act funds in conjunction with other funds to complete



5
  The Federal Procurement Data System implemented a new data element on March 12, 2010, to capture the
Treasury Account Symbol code.
6
  Contracting officers input procurement information into FedBizOpps which is automatically populated to
Recovery.gov.
                                                                                                       Page 17
                      Procurements Were Not Processed in Compliance
                       With the American Recovery and Reinvestment
                                       Act of 2009



        projects. They may do so, but must separately track and report the use of Recovery Act
        funds for these projects.
Our prior audit also noted one aspect of the Recovery Act’s transparency and accountability
requirements that does not apply to IRS contractors.7 IRS contractors receiving Recovery Act
funds are not required to report information on Recovery.gov, including how the funds were
used, any jobs created, and executive compensation packages. Therefore, our audit did not
include a review of recipient reporting requirements.
In addition to the previous OMB guidance, the Department of the Treasury8 and IRS9 guidance
further clarify Recovery Act guidance for procurements:10
12.     The IRS was initially required to obtain Department of the Treasury approval on all
        planned procurements. However, in the draft Acquisition Bulletin dated
        February 4, 2010, this policy was updated to reflect that the Department of the Treasury
        no longer required review and/or approval of “Act Friendly” procurements.
13.     Use the appropriate Recovery Act appropriation codes for funding Recovery Act
        procurements. There are two IRS Recovery Act appropriation codes: 09110129D
        (Tax Provisions) and 09100934D (Health Coverage Tax Credit).




7
  The Recovery Act requires agencies receiving funds under Division A of the Recovery Act to comply with the
transparency requirements for recipient reporting on Recovery.gov. The IRS received funds under Division B of the
Recovery Act (Tax, Unemployment, Health, State Fiscal Relief, and Other Provisions), which does not include this
transparency requirement. Although the IRS received its funding for the Health Coverage Tax Credit under
Division A, this tax provision is covered under Division B and, therefore, the recipient reporting requirement does
not apply.
8
  On February 19, 2009, the Department of the Treasury issued Acquisition Bulletin No. 09-02 to implement
OMB Memorandum M-09-10 and subsequently issued guidance in various forms to implement additional
Agency-wide guidance, interpretations, and processes. Acquisition Bulletin No. 09-02, Revision 1, was issued on
June 30, 2010, to consolidate all informal guidance as well as new policy in support of OMB requirements.
9
  IRS Policy and Procedure Memorandum No. 70.26 American Recovery and Reinvestment Act of 2009, dated
November 17, 2010.
10
   We broadly use the term procurements throughout this report to include contracts, task orders, or delivery orders
issued against existing contracts.
                                                                                                          Page 18
                        Procurements Were Not Processed in Compliance
                         With the American Recovery and Reinvestment
                                         Act of 2009



                                                                                               Appendix VI

    Summary of Internal Revenue Service Compliance
     With Recovery Act Procurement Requirements

Figure 1 presents the details of the noncompliance of the American Recovery and
Reinvestment Act of 2009 (Recovery Act)1 procurement requirements observed in our audit of
19 procurements2 awarded between April 17, 2009, and July 21, 2010. The award requirements
are based upon the dollar value and type of procurement action. As a result, all Recovery Act
procurements do not have to meet all the listed requirements.
                Figure 1: Observations of Noncompliance With Recovery Act
                                Procurement Requirements

                                                                    Requirement

                                                      Not                                   Not      Percentage
             Recovery Act Requirement               Applicable    Applicable      Met       Met       Not Met

    Posting of Presolicitation Notices on
                                                        16             3            2         1         33%
    FedBizOpps.3
    Formatting of Presolicitation Notices:
    •   The Word “Recovery” Preceding Actual
                                                        16             3            0         3         100%
        Title Field on the Notice.4
    •   The Required Statement Preceding
        Description of Requirement Section on the       16             3            0         3         100%
        Notice.5
    Inclusion of Mandatory Contract Clauses.6            0             19          12         7         37%



1
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
  We broadly use the term procurements throughout this report to include contracts, task orders, or delivery orders
issued against existing contracts.
3
  See Appendix V, item number 3, publishing of presolicitation notices on the FedBizOpps web site before soliciting
contractor bids.
4
  See Appendix V, item number 4 (a), use of “Recovery” as the first word preceding the title field on the
presolicitation notice in the FedBizOpps system.
5
  See Appendix V, item number 4 (b), the mandatory statement included in the Description filed on the
presolicitation notice in the FedBizOpps system.
6
  See Appendix V, item number 5, terms and conditions required in contract documents to ensure Recovery Act data
collection and accountability requirements are met.
                                                                                                         Page 19
                        Procurements Were Not Processed in Compliance
                         With the American Recovery and Reinvestment
                                         Act of 2009



                                                                    Requirement

                                                        Not                                 Not     Percentage
              Recovery Act Requirement                Applicable   Applicable     Met       Met      Not Met

     Appointing Qualified Contracting Officer’s
                                                         10            9           6         3          33%
     Technical Representatives.7
     Posting of Contract Award Information on
     Publicly Accessible Web Sites
         •   FedBizOpps.8                                 8            11          7         4          36%
                                                  9
         •   Federal Procurement Data System.             0            19          7         12         63%
         •   Recovery.gov.10                             14            5           3         2          40%
      Formatting of Contract Award Notices, the
      Word “Recovery” Preceding Actual Title Field          8            11          1          10         91%
      on the Notice.11
    Source: Our analysis of 19 Recovery Act procurements awarded between April 17, 2009, and July 21, 2010. This
    analysis does not include the three unreported Recovery Act procurement actions we identified during our
    fieldwork.




7
  See Appendix V, item number 10, appoint qualified Contracting Officer’s Technical Representatives.
8
  See Appendix V, item number 3, publishing of contract award notices on the FedBizOpps.
9
  See Appendix V, item number 4 (c), publishing of specific information on the Federal Procurement Data System
for contract award actions.
10
   See Appendix V, item number 6, publishing of specific contract award information on Recovery.gov when the
contract value exceeds $500,000.
11
   See Appendix V, item number 4 (a), use of “Recovery” as the first word preceding the title field on the award
notice in the FedBizOpps system.
                                                                                                         Page 20
                      Procurements Were Not Processed in Compliance
                       With the American Recovery and Reinvestment
                                       Act of 2009



                                                                                                Appendix VII


              The Recovery Act Procurement Process
                  at the Internal Revenue Service

The IRS Office of Procurement tasked Procurement Policy1 with the responsibility for tracking
all planned American Recovery and Reinvestment Act of 2009 (Recovery Act)2 funded
procurements to ensure they are properly reported on the IRS Procurement Plan,3 the IRS FNR,4
and the OMB MAX web site. Another duty of Procurement Policy is to advise IRS program
offices and Office of Procurement personnel on the specific guidelines and requirements for
planning and awarding Recovery Act funded procurements. In addition, for planned
procurements that are not “Act Friendly,” Procurement Policy is tasked with coordinating the
Department of the Treasury reviews and approves the procurement’s acquisition strategy prior to
the solicitation for contractor’s bids or requests for proposals. Planned procurements that are
“Act Friendly” do not require prior approval from the Department of the Treasury. However,
they must be reviewed by and coordinated with Procurement Policy prior to any communication
with contractors.
Within the IRS, it is the responsibility of the program offices to determine whether the
procurement need is appropriate5 for Recovery Act funding, and the requesting activity must
include a written justification identifying how the procurement relates to Recovery Act efforts.
Two appropriation codes6 have been established to track Recovery Act procurements, and
program offices also must verify that the correct Recovery Act appropriation codes are reflected
on the procurement requisition. In addition, the program office must ensure funding is available
and approved through their designated Financial Plan Manager. The IRS program offices are
required to notify the Office of Procurement of any new planned procurements as they occur for
inclusion in the IRS Procurement Plan. The responsible contracting officer is required to notify


1
  IRS Procurement Policy ensures the uniform interpretation and implementation of the Federal procurement
regulations, statutes, and directives by establishing and issuing uniform policies and procedures, providing quality
reviews of contractual instruments and procurement operations, and providing cost and pricing analysis on major
acquisitions.
2
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
3
  See Appendix VIII for a glossary of terms.
4
  The IRS Office of Procurement advised us that the Department of the Treasury no longer required the IRS to
submit the FNR as of October 8, 2010.
5
  Procurements initiated for Recovery Act funding should relate to the Recovery Act goals and activities reflected in
the Act’s legislation.
6
  There are two IRS Recovery Act appropriation codes: 09110129D (Tax Provisions) and 09100934D (Health
Coverage Tax Credit).
                                                                                                            Page 21
                     Procurements Were Not Processed in Compliance
                      With the American Recovery and Reinvestment
                                      Act of 2009



Procurement Policy when a Recovery Act action is awarded or pending award and post
procurement presolicitation and award information on FedBizOpps, Recovery.gov 7 and the
Federal Procurement Data System for access by Government and Public users. Finally,
Procurement Policy submits weekly updates to the Procurement Plan on the Treasury OMB
MAX website and FNR updates to the Department of the Treasury, Office of Performance
Budgeting, as appropriate.




7
 Contracting officers input procurement information into FedBizOpps which is automatically populated to
Recovery.gov.
                                                                                                          Page 22
                        Procurements Were Not Processed in Compliance
                         With the American Recovery and Reinvestment
                                         Act of 2009



                                                                                           Appendix VIII


                                        Glossary of Terms

                   Term                                                 Definition

Acquisition Strategy                           Documentation which identifies whether a procurement
                                               action will be awarded as a new contract, a modification to
                                               an existing contract, a task or delivery order issued against
                                               an existing contract, or a modification to an existing task or
                                               delivery order. The acquisition strategy for American
                                               Recovery and Reinvestment Act of 2009 (Recovery Act)1
                                               procurements identifies whether the procurement is
                                               competitively bid, firm fixed-price, and awarded to a small
                                               business.

Act Friendly                                   A procurement action that is competitive, firm fixed-price,
                                               and awarded to a small business.

Appropriation                                  A provision of law authorizing the expenditure of funds for
                                               a given purpose.

Contract Award                                 The Recovery Act and its implementing guidance use the
                                               term “contract award” to distinguish all types of Recovery
                                               Act funded procurements from grants and other forms of
                                               Federal assistance.

Deobligated                                    A downward adjustment of the obligations recorded in a
                                               contract document. It is caused by factors such as:
                                               (1) termination of a part of the project; (2) reduction in
                                               material prices; (3) cost under-run; or (4) correction of
                                               recorded amounts. The deobligated funding is then
                                               available for other uses.




1
    Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                                                                                      Page 23
                   Procurements Were Not Processed in Compliance
                    With the American Recovery and Reinvestment
                                    Act of 2009



             Term                                         Definition

Federal Acquisition Regulation   The codification and publication of uniform policies and
                                 procedures for acquisitions by all Executive Branch
                                 agencies.

Federal Business Opportunities   A single Government-wide point of entry for Federal
                                 Government procurement opportunities exceeding $25,000.
                                 Through this system, commercial vendors seeking Federal
                                 markets for their products and services can search, monitor,
                                 and retrieve opportunities solicited by the entire Federal
                                 contracting community.

Federal Procurement Data         A comprehensive web-based tool for agencies to report
System                           contract actions.

Funding Notification Report      The amount of funds that agencies have publicly announced
                                 as being available to entities outside of the Federal
                                 Government.

Integrated Financial System      An administrative accounting system used by the IRS.

Office of Management and         As related to this report, the division of the Executive
Budget (OMB)                     Office of the President that has the primary responsibility
                                 for developing Government-wide rules and procedures to
                                 ensure funds are awarded and distributed in a prompt and
                                 fair manner; uses of funds are transparent to the public; and
                                 steps are taken to mitigate fraud, waste, and abuse.

OMB MAX Web Site                 The OMB uses the MAX Information System to collect,
                                 validate, analyze, model, collaborate with Federal agencies
                                 on, and publish information relating to, its
                                 Government-wide management and budgeting activities.

Procurement Plan                 An inventory list of all IRS planned procurements that will
                                 use Recovery Act funding.

Program Offices                  The functional organization within IRS business units that
                                 needs the good or service provided by the procurement.



                                                                                       Page 24
                  Procurements Were Not Processed in Compliance
                   With the American Recovery and Reinvestment
                                   Act of 2009



             Term                                           Definition

Recovery.gov                        The Recovery Act required the creation of a web site to
                                    report data related to Recovery Act spending.
                                    Recovery.gov was established as the United States
                                    Government’s official Recovery Act web site.

Solicitation of Bids or Proposals   Any request to submit offers or quotations to the
                                    Government for new procurement actions. Solicitations
                                    under sealed bid procedures are called “invitations for
                                    bids.” Solicitations under negotiated procedures are called
                                    “requests for proposals.”




                                                                                         Page 25
     Procurements Were Not Processed in Compliance
      With the American Recovery and Reinvestment
                      Act of 2009



                                                 Appendix IX

Management’s Response to the Draft Report




                                                      Page 26
Procurements Were Not Processed in Compliance
 With the American Recovery and Reinvestment
                 Act of 2009




                                                Page 27
Procurements Were Not Processed in Compliance
 With the American Recovery and Reinvestment
                 Act of 2009




                                                Page 28
